George Grob /s/
Deputy Inspector General for
  Evaluation and Inspections

Performance Data for the Senior Medicare Patrol Projects: March 2001 Report

(OEI-02-01-00300)


Edwin Walker, Director

Office of Program Operations and Development

Administration on Aging



At the request of the Administration on Aging (AoA), we have continued to collect performance

data from the 41 existing and the 7 new Senior Medicare Patrol Projects. The attachments

present cumulative performance data from the beginning of each project. Attachment A contains

42 months of data for the 12 original projects. Attachment B reflects the status after the first 18

months for 29 of the projects. Attachment C presents performance data for the first 6 months of

7 new projects. Please note that each project self-reports its own data and that we have not

independently verified their accuracy.


In summary, the 48 Senior Medicare Patrol projects have trained over 17,000 volunteers who

have educated a total of 380,000 beneficiaries. They have also reached millions of people

through media and community education events. We estimate that their efforts have resulted in

about $2.7 million in recouped Medicare funds. The HCFA is working with AoA to improve the

tracking and reporting of these savings. As previously reported, we expect a significant number

of the beneficiaries who have learned to detect fraud, waste, and abuse from the Senior

Medicare Patrol Projects, are calling the OIG fraud hotline or other contacts, thereby, not giving

the projects their full credit. Also, substantial savings, which cannot be tracked effectively, may

be derived from a sentinel effect whereby fraud and errors are reduced in light of Medicare

beneficiaries’ scrutiny of their bills.


In the first 6 months of the new grant period, the original 12 Senior Medicare Patrol Projects

have successfully continued their mission of educating beneficiaries about fraud, waste, and

abuse. Since the inception of these projects in July 1997, they have recruited and trained over

14,000 volunteers who have educated approximately 232,000 Medicare beneficiaries. They

have generated 2,770 media events and conducted 2,748 community education events. Most

notably, 312 of the 8,108 complaints received warranted actions resulting in the identification of

$2.6 million in Medicare funds recouped.

Page 2 - Edwin Walker

The 29 Senior Medicare Patrol Projects which have operated for 18 months are also
accomplishing a great deal through their efforts. More than 3,200 trainers have educated
150,000 beneficiaries. In addition, they have promoted 4,200 media and community education
events. These projects have referred 1,160 of the 2,671 complaints received. Nearly 60%
(681) of those referred resulted in action. A total of $85,387 in Medicare funds recouped can be
documented at this time, although we believe that the actual amount identified through these
efforts is much higher.

Four of the seven new projects submitted performance data reflecting their training activities. The
other three remain in the planning stage, and have no numbers to report as of December 31,
2000. The four projects trained 154 volunteers who have educated 363 beneficiaries. They
have conducted 46 media and community education events. Complaints received from 23
beneficiaries resulted in 2 actions taken. One of these identified an erroneous charge of $10,100,
detected before Medicare made the payment.

We will continue to monitor the projects and provide you with summary reports of performance
data. If you have any questions, please call me at (202) 619-0480 or have your staff call Jack
Molnar at (212) 264-1998.

Attachments
                                                                                                                                                                         APPENDIX A

                     42-Month Outcomes Reported by the Senior Medicare Patrol Projects

            Activity              TOTAL           CA         HI          IA            IL         MD         MN         MO          NH           NY           PA          RI         WI

           OUTPUTS

# training sessions                       902           67         19          72            19         99         52         17          10          447           44           9         47

# trainers trained                     14,472       1,017         162         936           235        930        332         82         348        9,572          105         228        525

# media events                           2,770         158         74         396            74        154        293         54         980          267           45         139        136

# community education                    2,748           9         45         335           138        533        301        111         131          730          270          35        110

          OUTCOMES

total # trainers who have ever           4,191         292         65         DK            235         74         92         82         344        2,817           50          23        117
conducted activities

# group sessions                         5,197         920        152         654        1,101         167        348         96         336          619          372         201        231

# beneficiaries at group              213,760      45,804      6,298      21,233       40,615      10,092       7,543     5,122       7,441       24,869       33,314       4,390      7,039
sessions

# one-on-one sessions                  18,078          607          0         115           444     4,916         350     1,270       7,496         2,392          375         DK         113

total # beneficiaries educated        231,838      46,411      6,298      21,348       41,059      15,008       7,893     6,392      14,937       27,261       33,689       4,390      7,152

estimated # people reached          47,122,273   6,535,510   771,183    2,000,000   10,665,000    528,669     195,648   188,000    1,130,000     688,228    10,546,200   8,811,300 5,062,535
by media events

estimated # people reached           8,646,233     11,459      5,978      26,521         8,205     37,553      13,411   237,621      15,767      250,276     8,009,000     14,768     15,674
by community education
events

# complaints received                    8,108         607         24         776           206        812        185         19      4,721           196          440          31         91

# complaints referred for                1,190         182          6         349            73        140        106         17          74           70           94          30         49
follow-up

# complaints resulting in                 312           35          0          24           DK         101         26        DK           23           43           34           5         21
some action

Medicare $ recouped                  2,614,994   1,315,119          0   1,145,767           DK         DK    109,997*        DK            0        3,008     144,179          DK      6,922

Other $ recouped                    48,419,638     38,787           0     58,691      146,485          DK      15,805   213,346      29,345    47,901,200        1,835         DK     14,143

Total $ recouped                    51,034,632   1,353,906          0   1,204,457     146,485            0     15,805   213,346      29,345    47,904,208     146,014            0    21,065



*Pending documentation of actual recoupments
                                                                                                                                                                                  APPENDIX B


                                    18-Month Outcomes Reported by the Senior Medicare Patrol Projects



                   Activity             TOTAL        AK         AL         AR        AZ        CO         CT         DC1        DC2         DE        FL        GA3        GA4         ID         IN

                 OUTPUTS

# training sessions                           511          40         15         2        22         16          6          9          0         13         8         11         15          17        0

# trainers trained                           3,204         62        143        27        45        139        101         40          0         94        43     123        135             33        0

# media events                               2,397         35         63        17     396           19         23         16          0      910          41          1          6         142        1

# community education events                 1,803         36         93        47     135           55        107         25         15         45        46          2         59          28        2

              OUTCOMES

total # trainers who have ever               1,401         55         57         8        12         22          6         14          5         35        21         87         52          23        0
conducted activities

# group sessions                             2,783         20        108        38        70        203         41         54         14         82        31     108        257            226        0

# beneficiaries at group sessions         124,629         494   2,953        5,206   13,446      7,481         951     2,148      245        2,011     1,061     3,023      8,822       6,791          0

# one-on-one sessions                      25,643     1,407          138        20        42         82          4         10     110             4        87         48          3          53        0

total # beneficiaries educated            150,272     1,901     3,091        5,226   13,488      7,563         955     2,158      355        2,015     1,148     3,071      8,825       6,844          0

estimated # people reached by           24,232,696   80,370 1,395,450      192,300   52,680    462,366    284,547    285,000           0   375,000 2,251,018     1,000     29,533     400,450          0
media events

estimated # people reached by             467,095     2,200     5,415        3,475   16,789      6,439      5,754    174,000     1,412     121,702    13,994      530       6,780       1,122          0
community education events

# complaints received                        2,671        326         29         6     440           56         16         92          0         50        42          0         12         218        0

# complaints referred for follow-up          1,160          4         17         4        46          8         10         33          0          2         7          0          3         147        0

# complaints resulting in some                681           2          2        DK         1        DK           1          3          0          0         1          0          1          84        0
action

Medicare $ recouped                        85,387           0          0         0         0          0        162          0          0          0         0          0          0    10,970          0

Other $ recouped                           81,649    12,414            0         0     618            0          0          0          0          0         0          0          0    22,705          0

Total $ recouped                          167,036    12,414            0         0     618            0        162          0          0          0         0          0          0    33,675          0


Please note these distinctions:
1. The AARP Foundation, DC               2. Friendship House, DC
3. Atlanta Regional Commission, GA    4. Department of Human Resources, GA



                                                                                                                                                                               APPENDIX B


                                 18-Month Outcomes Reported by the Senior Medicare Patrol Projects



               Activity              MA        ME        MI        MT        NM         NV          OH         OK         OR         PR         TX5         TX6         UT         VA         WA

              OUTPUTS

# training sessions                       25        17        24         4         4          35           3         2          48          8          9           15          5         15     123

# trainers trained                      158       110      289          31      102           41          63        16         289         79      154             46         45        339     457

# media events                          133         71         3        32        27          28          47         2          16         25          9           37          3        111     183

# community education events              73      138          5        50        55          30          61        47          12        333         29           76         13        110        76

             OUTCOMES

total # trainers who have ever            45        45        31        28        18          19          41         7          45          3         88           31         11        135     457
conducted activities

# group sessions                        127         23        89        12        19          23         121         2          44          0         56           82         15        328     590

# beneficiaries at group sessions      3,790     1,130    4,933      247        594       1,185       5,026     1,628       1,640           0     1,075       2,125          350   10,556     35,718

# one-on-one sessions                  1,375      112          0         6      367           20         357         2          23          5      135            277         57          0   20,899

total # beneficiaries educated         5,165     1,242    4,933      253        961       1,205       5,383     1,630       1,663           5     1,210       2,402          407   10,556     56,617

estimated # people reached by        166,650 2,202,351    1,100    82,210    242,500   3,532,832   1,275,002   20,100    2,364,650   850,000    630,000    2,412,000     1,700 2,108,453 2,533,434
media events

estimated # people reached by          5,027     6,587    1,650     1,232     10,816      2,817       8,196     3,951      11,144      5,000      4,000       4,349      2,900     22,287     17,527
community education events

# complaints received                     65        29     129           6        63          81           8         6          28        710         35           38          7        135        44

# complaints referred for follow-          7        20        44         0        37          11           1         6          14        600          0           11          0        105        23
up

# complaints resulting in some            DK         7     DK            0        28           2           0         0           4        520          0            5          0        DK         20
action

Medicare $ recouped                       DK      DK     17,269          0     4,927         787           0         0         DK         DK           0            0          0        DK    51,272

Other $ recouped                      34,762      DK      2,466          0      382       3,723            0         0         DK         DK           0           86          0        DK     4,493

Total $ recouped                      34,762         0   19,735          0     5,309      4,510            0         0           0          0          0           86          0          0   55,765
Please note these distinctions:
5. Baylor University, TX              6. The National Hispanic Council on Aging, TX



                                                                                                                                                               APPENDIX C

                                   6-Month Outcomes Reported by the Senior Medicare Patrol Projects


                                  Activity                                TOTAL           LA         MS         NC       NE         SC       SD       WY

                                  OUTPUTS

                                  # training sessions                             15             3          6        0          5        0        0        1

                                  # trainers trained                            154             25          5        0        117        0        0        7

                                  # media events                                  19            11          2        0          2        0        0        4

                                  # community education events                    27             5         22        0          0        0        0        0

                                  OUTCOMES

                                  total # trainers who have ever                  20            12          1        0          0        0        0        7
                                  conducted activities

                                  # group sessions                                29            24          5        0          0        0        0        0

                                  # beneficiaries at group sessions               95            24         71        0          0        0        0        0

                                  # one-on-one sessions                         268              0        263        0          1        0        0        4

                                  total # beneficiaries educated                363             24        334        0          1        0        0        4

                                  estimated # people reached by              277,109       75,000    107,109         0   45,000          0        0   50,000
                                  media events

                                  estimated # people reached by                 887            200        687        0          0        0        0        0
                                  community education events

                                  # complaints received                           23            10         10        0          1        0        0        2

                                  # complaints referred for follow-                   3          0          0        0          1        0        0        2
                                  up

                                  # complaints resulting in some                      2          0          0        0          0        0        0        2
                                  action

                                  Medicare $ recouped                         10,100             0          0        0          0        0        0   10,100

                                  Other $ recouped                                    0          0          0        0          0        0        0        0

                                  Total $ recouped                            10,100             0          0        0          0        0        0   10,100
